                                                     NATIONAL SCIENCE FOUNDATION
    ~@.                                               OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS
     4
      0
       O N D AT
                \O                             CLOSEOUT MEMORANDUM

    Case Number: A08110056                                                                       Page 1 of 1



I
           We received an allegation that a fellowship proposal' submitted by a postdoctoral research
           associate2 duplicated some text, figures, and research goals from a proposal3 submitted a few
           months earlier by the faculty advisor of the postdoctoral student. Our assessment of the two
           proposals confirmed the alleged overlap and also showed that the fellowship proposal included
           unique text and proposed research. The postdoc is identified by name in the faculty mentor's
           proposal, along with requested salary support. The faculty mentor is named in the fellowship
           proposal, along with a description of past and proposed collaborative work. It is a requirement of the
           fellowship program that a mentor be identified, and a letter of support froin the mentor must be
           included with the fellowship proposal. Both proposals were pending simultaneously at NSF.

1          The program solicitation4 states: "An individual is eligible to apply for a Postdoctoral Fellowship in
           [the program] if all of the above criteria are inet and the applicant submits a research plan that has
           not been submitted in another proposal to any Federal agency." The program officer infornled us
           that the fellowship proposal was subsequently withdrawn.

           Accordingly, this case is closed and no further action will be taken.
                                                       /




            Program Solicitation NSF 08-50 1




NSF OIG Form 2 ( 1 1/02)
